              CSX On-Time Performance Incentives:
Inaccurate Invoices and Lack of Amtrak Management Review Lead
                         to Overpayments


                  Final Report No. 406-2005


                       March 30, 2010




                      Audit Report Issued By:


          NATIONAL RAILROAD PASSENGER CORPORATION
                OFFICE OF INSPECTOR GENERAL
                       10 G STREET, N.E.
                    WASHINGTON, DC 20002
Date: March 30, 2010                                     From: Ted Alves, Inspector General

To: Joseph H. Boardman, President and CEO                Department: Office of Inspector General

                                                         Subject: CSX Transportation Inc. OTP

                                                         Cc: William Crosbie
                                                             Richard Phelps




Enclosed is our Final report on the audit of the CSX Transportation Inc. (CSX) on-time
performance (OTP) bills. Our audit objectives were to verify the compliance of CSX claims for
on-time performance incentives with the agreements (Appendix V-Performance Payments and
Penalties) and to evaluate the adequacy of Amtrak management’s oversight and controls of
monthly OTP invoices.

We appreciate the courtesies and cooperation of your staff during this audit. If you have any
questions regarding this report, please contact me at 202-906-4600 or Dan Krueger, Senior
Director at 312-880-5303.




Ted Alves,
Inspector General


Attachment
                             CSX On-Time Performance Incentives
                                  Final Report # 406-2005



                            EXECUTIVE SUMMARY


WHY WE DID THIS            CSX Transportation Inc. (CSX) billed Amtrak over $171 million from April
    AUDIT                  1993 through April 2004 (our audit period) of which $34 million was for on-
                           time performance (OTP) incentives for operating passenger trains on-time
This audit was             more than 80% of the time during a month. The remainder, $137 million,
conducted:                 was for services CSX rendered for operating Amtrak passenger trains over
 To determine             its tracks. The $34 million billed by CSX for OTP incentives is the subject
  whether CSX              of this report.
  complied with the
  Agreements,              CSX has a responsibility to comply with the terms of the operating
  Appendix V, which        agreement by accurately billing and supporting the amounts billed for OTP
  provides the basis       incentive payments and services. We reviewed all the agreements and
                           corresponding amendments between CSX and Amtrak applicable to the audit
  for “performance
                           period and analyzed the supporting documents for OTP incentives billed by
  payments and             CSX.
  penalties”.
 To evaluate the              Amtrak overpaid        We found that CSX over billed Amtrak by
  adequacy of Amtrak           CSX $20,052,519        $20,052,519 for OTP incentives. This occurred
  management’s                 for On-Time            because CSX did not bill Amtrak for OTP
  oversight and                Performance            incentives in compliance with Appendix V of
  controls of monthly          incentives             the operating agreement. Specifically, CSX did
  OTP invoices.                                       not provide documentation to support its OTP
                           incentive claims and submitted inaccurate claims for departure and arrival
                           times, and tolerances - such as, station, extra car, recovery time base,
                           miscellaneous, curfew/maintenance of way, and Do-Not-Count (DNC)
tolerances claimed.

We also found that Amtrak’s Transportation Operations Management group did not perform a complete
and thorough review to verify the OTP incentives billed by CSX prior to approving them for payment. In
our August 2008 report, we advised Amtrak that invoices from host railroads were not thoroughly
reviewed prior to payment. Specifically we reported that management controls were inadequate and
ineffective and host railroads had consistently over billed Amtrak. We reported that management is
responsible for establishing adequate systems of internal controls over its operations to provide
reasonable assurance that Amtrak’s assets are protected. We recommended, among other actions, that
Amtrak perform thorough and complete reviews of host railroad bills prior to payment. Although
management agreed to thoroughly review bills before making payments, nearly 2 years later management
has not implemented our recommendations. We estimate, based upon our audit work during the last 10
years, the potential cost to Amtrak of not establishing effective and adequate controls over the OTP
incentive review and payment process has cost Amtrak about $5 million per year on average.

We recommended that Amtrak management recover the $20,052,519 CSX over billed Amtrak for OTP
incentives and make the funding commitment and provide a plan with milestone dates for implementing
corrective actions. Management agreed with both recommendations and committed to provide an action
plan by May 1, 2010.



                                                  i
                                         CSX On-Time Performance Incentives
                                              Final Report # 406-2005



                                             TABLE OF CONTENTS

BACKGROUND ............................................................................... 1

RESULTS OF AUDIT ...................................................................... 1

  Finding:           Amtrak over paid $20,052,519 in OTP incentives ............................................. 1

  Performance Payments and Penalties..................................................................................... 2

  Railroad monthly billings are not thoroughly reviewed before payment............................ 4

  CSX Management ..................................................................................................................... 5

RECOMMENDATIONS .................................................................... 5

MANAGEMENT’S COMMENTS AND OIG RESPONSE ....................... 6

EXHIBIT A..................................................................................... 7

  Scope........................................................................................................................................... 7

  Methodology .............................................................................................................................. 8

EXHIBIT B ..................................................................................... 9

  Amtrak Management Interpretation of 12 Month Look-back............................................. 9

APPENDIX ................................................................................... 10
                                  CSX On-Time Performance Incentives
                                       Final Report # 406-2005




                                            BACKGROUND

The Rail Passenger Service Act of 1970 created the National Railroad Passenger Corporation
(NRPC), a.k.a. Amtrak, to operate a national rail passenger system. Amtrak was created with the
understanding that the freight (host) railroads, such as CSX Transportation, Inc. (CSX), would
provide certain services, equipment, and facilities to Amtrak in order for Amtrak to provide
national rail passenger service. Host railroads can bill Amtrak for all costs that were considered
“avoidable” had Amtrak not been allowed to operate over its tracks. In addition to "avoidable"
costs, Amtrak elected to include incentives in the agreements with the host railroads to entice
them to operate passenger trains on-time; i.e., within the mutually agreed upon running times
between established checkpoints 1 . Generally, performance payments are calculated using
provisions described in Appendix V of railroad operating agreements.

CSX summarizes and provides detailed schedules of its calculations for each train’s operating
performance monthly. The CSX schedules show the total runtime, tolerances claimed, and
whether the train was “on-time” or late for each trip during the month. The “on-time”
percentage is determined by dividing the number of times the train arrived “on-time” at the
checkpoint by the number of trips operated to the checkpoint during the month.

Amtrak’s Transportation Operations Management group reviews the CSX monthly bills and if
Amtrak management disagrees with any portion of a bill, then they take exception to it and
notify CSX by labeling it as an exception/exception notice and reduce the payment to CSX by
the amount of the exception.



                                        RESULTS OF AUDIT


Finding: Amtrak over paid $20,052,519 in OTP incentives

Our audit of the monthly OTP bills and schedules disclosed that CSX inaccurately billed Amtrak
for on-time performance payments from April 1993 through April 2004. The inaccurate billing
occurred because CSX did not comply with the tolerances allowed in Appendix V, Section A, of


1
 A checkpoint is a term used in the agreement to identify the endpoint of a trip or partial segment of a trip for
purposes of calculating OTP incentives. This is usually a specific location such as a station or a cross-over point
between two tracks on the same railroad or between different railroads. For example, there may be one or many
checkpoints on a long distance train route. A route from Chicago to Pontiac, MI has only one checkpoint, the
endpoint. A route such as the Sunset Limited has three checkpoints on the CSX railroad.




                                                       Page 1
                                 CSX On-Time Performance Incentives
                                      Final Report # 406-2005


the agreement. Further, Amtrak management did not perform a complete and thorough review 2
to verify the OTP claims made by CSX. As a result Amtrak over paid CSX $20,052,519 for
OTP incentives.

Performance Payments and Penalties

All of the agreements between Amtrak and CSX include an Article V, Section 5.1 (c), which
gives CSX the right to additional payments for schedule adherence; i.e., OTP incentive
payments, as set forth in Appendix V (Performance Payments and Penalties3 ). Appendix V
states, “Performance payments will be paid for a train at each performance checkpoint where the
train attains an on-time performance greater than 80% during a month. Performance penalties
will be assessed against the train at performance checkpoints where the on-time performance is
less than 70% during a month.”


      Percentage of total trips run on-time during
                                                              Performance Payments and Penalties
          the month per Appendix V, Table 1

                          80-100%                                  CSX earns incentive payments

                           70-80%                         no incentives earned and no penalties assessed

                                                          CSX incentive payments are recoverable up to
                           0-70%
                                                           the amount paid in the preceding 12 months



Appendix V provisions set forth the conditions that are to be used to determine the on-time
percentage as well as how to apply the provisions and calculate the on-time percentage.
Specifically, in determining whether a train arrived on time, Amtrak agreed to allow tolerances
for specific delays that were not caused by or were generally beyond the control of the host
railroad.

Appendix V, Section D, of the agreement between Amtrak and CSX is referred to as the “look-
back” provision. The “look-back” provision limits Amtrak from applying penalties beyond the
amount of performance payments earned for all passenger trains at all checkpoints in the

2
  Amtrak’s Transportation Operations Management group took exception to $4,835,928 billed by CSX for the audit
period. Although Amtrak’s Transportation Operations Management performed a review, they agreed that the review
was not a complete and thorough review; i.e., the review was not detailed enough to detect or prevent erroneous
OTP claims made by CSX.
3
  CSX can earn incentive payments, but it is not required to pay and has never paid Amtrak a penalty for undesirable
on-time performance; i.e., operating Amtrak passenger trains less than 70% on-time during the month. The
agreement allows Amtrak to recover any performance payments made to CSX during the preceding 12 month period
for operating Amtrak passenger trains less than 70% on-time during the month. Any performance payments made
prior to the preceding 12 month period cannot be recovered by Amtrak.




                                                     Page 2
                                   CSX On-Time Performance Incentives
                                        Final Report # 406-2005


preceding 12 month period. For example, the preceding 12 month period “look-back period”
was applied as follows:

       In January 1995, CSX billed Amtrak $353,148 for OTP incentives. Our analysis
       showed that CSX should not have billed Amtrak because it operated Amtrak trains
       on time less than 70% of the time. According to the “Calculation of Performance
       Penalties” agreement provision, CSX owed Amtrak $149,540 for operating Amtrak
       trains on-time less than 70% of the time during January 1995, instead of earning
       $353,148 for OTP incentives as billed. We “looked-back” 12 months to January
       1994 and verified that Amtrak paid $241,984 for OTP incentives to CSX. We were
       able to recapture the $149,540 owed Amtrak for January 1995 due to the “look-
       back” provision by offsetting it against the $241,984 paid to CSX in January 1994.

We calculated the “look-back” provision based upon discussions with Amtrak management.
Refer to Exhibit B for Amtrak’s interpretation of the 12 month “look-back” provision.

We found that CSX did not comply with the agreement provisions and submitted inaccurate OTP
billings to Amtrak. The inaccurate claims occurred due to errors or omissions in the following
areas:

         a.       Departure and/or arrival times.
         b.       Station dwell calculations.
         c.       Extra car tolerances.
         d.       Carry-forward calculations.
         e.       Miscellaneous tolerances.
         f.       Curfew/maintenance tolerances.
         g.       “Recovery time base” tolerances.
         h.       Using expired or incorrect agreement provisions.
         i.       Failing to take into account early arrivals at the stations.
         j.       Claiming “Do Not Count” (DNC) tolerances not stipulated in the agreement. 4
         k.       Failing to include necessary trip detail notes to support claimed tolerances.

For example, when reviewing departure and/or arrival times we used the following procedure; if
Amtrak held the train at a station longer than planned for boarding a large group of passengers,
then the host railroad should not be penalized or lose its incentive because the delay was caused
by Amtrak and was not attributable to the railroad. On the other hand, if CSX was responsible
for a delay such as an Amtrak train being held at a station due to a signal problem or freight train
congestion, then CSX was responsible for the delay and Amtrak would be entitled to recover
incentive payments previously paid to CSX (subject to the “look-back” provision).


4
 DNC tolerances are allowed to identify situations when neither CSX nor Amtrak is responsible for a delay, such as
severe weather. Thus, the train will not be counted at such checkpoint as late or as operated in calculating the train's
monthly on-time performance.




                                                       Page 3
                            CSX On-Time Performance Incentives
                                 Final Report # 406-2005


In summary, we audited 56 of 133 months for which records were available. Whenever records
were not available, we did not question CSX OTP claims and allowed them in their entirety.
Those claims were; however, subject to the “look-back” provision.

Overall, we are questioning the validity of the $20,052,519 in OTP incentive payments made to
CSX. The $20,052,519 is comprised of the $16,741,104 Amtrak paid CSX in performance
payments during for the 56 months audited plus $3,311,415 in performance penalties that are
recoverable due to the “look-back” provision.


Railroad monthly billings are not thoroughly reviewed before payment


Although Amtrak’s Transportation Operations Management group took exception to
approximately $4.8 million billed by CSX for the audit period, management stated the reviews
were not complete and thorough. In other words, the reviews were not detailed enough to detect
or prevent erroneous OTP incentive claims made by CSX. In August 2008, we issued our report
on Host Railroad Administration and Operations Management Controls (Report No. 401-2008).
We reported that management controls were inadequate and ineffective and host railroads had
consistently over billed Amtrak.

We reported that management is responsible for establishing an adequate system of internal
controls over its operations to provide reasonable assurance that Amtrak’s assets are protected.
Internal controls help management achieve it goals, operate effectively and efficiently, and
protect Amtrak from losses. Good business practice dictates that invoices be thoroughly and
completely reviewed and amounts verified before being approved for payment.

We further reported that the Inspector General Act of 1978 (amended in October 1988) and
Amtrak policy P/I 2.1.1 state that the OIG has an oversight responsibility. Ongoing detailed
reviews of monthly host railroad billings are not a function of the OIG. This is a management
function.

We recommended, among other actions, that Amtrak perform complete and thorough reviews of
host railroad bills prior to payment. Management agreed that billing reviews could be more
comprehensive, but stated that it would require additional staff whose cost might not be offset by
a commensurate improvement in the accuracy of payments. We do not agree with Amtrak’s
position. Our audit results have consistently shown that Amtrak incurs significant and
unnecessary loses due to inadequate billing reviews. Nearly two (2) years later, Amtrak has not
implemented our recommendation. Amtrak needs to take action now and establish effective and
adequate controls over the OTP incentive review and payment process.

Every month that Amtrak delays implementing our prior audit recommendations (report No.
401-2008) Amtrak loses money by overpaying host railroads for OTP incentives. Specifically,
based on our audit results, Amtrak has recovered more that $10 million over the last 10 years in



                                             Page 4
                                       CSX On-Time Performance Incentives
                                            Final Report # 406-2005


OTP incentive overpayments. Further our on-going audits have identified an additional $40
million in potential recoveries. We estimate the potential cost to Amtrak of not establishing
effective and adequate controls over the OTP incentive review and payment process is about
$5 million per year on average 5 .

CSX Management

In March 2008, we met with CSX management to discuss our results. CSX disagreed with the
entire matter citing a variety of issues including our reliance on delay reports, misapplication of
the “look-back” provisions, and statute of limitations. We believe CSX’s position lacks merit.
For example, CSX indicated Amtrak should not rely exclusively upon delay reports, yet CSX
issued an internal memorandum that stated, “Effective at 12:01 am, September 12, 1994, CSXT
will begin utilizing the Amtrak conductors delay reports for all trains operating over CSXT. The
TMAI sheets should match the conductor delay reports or the Arrow system delay reports. It is
imperative that this is implemented immediately.” CSX also indicated any claims against them
were subject to a three-year statute of limitations. We informed CSX that a National Arbitration
Panel (NAP) ruled that the statute of limitations was an inappropriate defense in a NAP
proceeding and therefore does not apply to our audit or time period.



                                         RECOMMENDATIONS

We recommend that Amtrak management;

           (1) Recover the $20,052,519 Amtrak overpaid CSX for OTP incentives, and

           (2) Make the funding commitment and provide a plan with milestone dates,
           responsible office, and management official for implementing the
           recommendations in our 2008 report (No. 401-2008, dated August 21, 2008
           including;

                   performing real time thorough reviews prior to payment,

                   developing formal written procedures and detailed steps to conduct
                    reviews of railroad OTP incentive billings,

                   clearly defining responsibilities and aligning the functions to ensure a
                    separation of duties, this should include not having people who
                    negotiate the contract administering it.

5
    $50 million divided by 10 years.




                                                    Page 5
                            CSX On-Time Performance Incentives
                                 Final Report # 406-2005



       MANAGEMENT’S COMMENTS AND OIG RESPONSE


We provided Amtrak with a draft report on March 19, 2010 and received a response on
March 26, 2010. Management’s response is included in it’s entirety in the Appendix to this
report. Amtrak stated the report provides useful information on which it can take action to
strengthen the review of host railroad billing practices. Amtrak also stated it expects to be able
to initiate negotiations of overpayments with CSX after reviewing and analyzing OIG’s
methodology and records on which it based its findings. Amtrak agrees that a thorough review
to verify on-time performance incentives billed by host railroads should be performed prior to
the approval and payment of invoices. Amtrak plans to adopt protocols and guidance consistent
with OIG’s 2008 report recommendations to; 1) perform real time thorough reviews prior to
making payments, 2) develop formal written procedures for conduction the billing reviews, and
3) clearly define responsibilities for conduction the reviews. Amtrak agreed to provide a detailed
action plan with milestone dates by May 1, 2010 to address our recommendations.

We recognize that management has taken some actions to implement the 2008 recommendations
including realigning the Host Railroad Group (contract negotiation) into the Transportation
Department, continuing the efforts to implement simplified, automated “Delay Avoidance
Incentives” with host railroads, and reinforcing the separation of duties between the Host
Railroad Group (contract negotiation) and Contract Administration (contract bill review,
payment, and audit).

We are encouraged by Amtrak’s commitment to address the issues raised in this report. The
recommendations will remain open pending implementation.


                                                #



Audit Staff:

Trig Alonso
Richard Bohne
Dan Krueger
Satish Parikh
See See Young
Raymond Zhang




                                             Page 6
                                      CSX On-Time Performance Incentives
                                           Final Report # 406-2005



                                                  Exhibit A
                                           Scope and Methodology

We conducted this audit in accordance with the generally accepted government auditing
standards (GAGAS). These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. We conducted this review
between 2004 and 2008. We used the following scope and methodology in conducting this
review.

Scope

CSX billed $34,391,905 in OTP incentives for the audit period of April 1993 through April 2004
of which our audit included the net paid amount of $26,590,523. (See the table below for the
breakout of the purpose and the amounts not included in the audit).

                             Schedule of Amounts billed by CSX and Net paid to CSX
                                                           Agreement        Agreement              Agreement
                                                           April 1993-     April 1997-May          June 1999-
                                                           March 1997           1999               April 2004         Totals
RF&P Auto Train Billed (Separate Agreement)            $       2,965,454   $             -     $            -     $      2,965,454
CSX Auto Train Billed (Separate Agreement)             $       2,445,642   $             -     $            -     $      2,445,642
CSX Billed                                             $      13,211,958   $       9,477,961   $      6,290,890   $     28,980,809
Billed by CSX                                          $      18,623,054   $       9,477,961   $      6,290,890   $     34,391,905
RF&P Auto Train Billed - Not Audited (Note 1)          $       (2,965,454) $             -     $            -     $      (2,965,454)
Exceptions (CSX claims denied by Amtrak management)    $         (92,597)           (498,251) $       (4,245,080) $      (4,835,928)
Net paid to CSX                                        $      15,565,003 $         8,979,710 $         2,045,810 $     26,590,523

                      Note 1
                      CSX took over RF&P in 1991, but continued to bill Amtrak under separate agreements until they were merged in
                      the April 1, 1997 agreement. This included spearate "Auto Train" agreements.


There were three CSX operating and two “Auto Train” agreements applicable during the audit
period. The three operating agreements were effective on November 1, 1986, April 1, 1997, and
June 1, 1999 respectively. Each operating agreement was further amended through Amendment
Agreement Changes (AACs). Amtrak also had an operating agreement with the Richmond,
Fredericksburg and Potomac Railroad (RF&P). CSX merged its operations with the RF&P in
1991.    At that time, CSX also became responsible for the RF&P agreement dated
January 1, 1977. The RF&P agreement, railroad operations, and monthly bills remained separate
until the April 1, 1997 agreement (Second Agreement) became effective. All of these
agreements were reviewed and used as the basis to determine the accuracy and validity of CSX




                                                              Page 7
                            CSX On-Time Performance Incentives
                                 Final Report # 406-2005


monthly billings for on-time performance incentives and to verify the compliance of CSX claims
with Appendix V of the agreement.

The right to perform an audit of CSX bills is included in Article V, Section 5.2(b) of the
agreement. This section allows Amtrak to audit and/or evaluate any payment of both financial
and operational issues. Both parties are required in Article V, Section 5.2(c) to maintain
supporting accounting, operating, and mechanical department records that are to be available for
inspection and/or copying. Although the agreement states that all such records must be retained a
minimum of 36 months our legal counsel concluded the 36 month limitation does not apply to
our audit or the time period.

A subpoena was issued to the CSX in 2003 to obtain documents for the audit period. However,
because the audit period included dates back to April 1993, there were no Amtrak or CSX
records available to review and verify the monthly billing claims for the months from April 1993
through October 1994.


Methodology

The audit included the following methods for gathering, analyzing and summarizing data:

    Reviewing the operating agreement and its amendments, focusing on sections that relate
     to the billing of OTP regarding train performance;

    Obtaining Train Operations Support System (TOSS) data and Amtrak Delay Reports
     (ADRs/CDRs) to enter trip data for analysis of OTP incentives claimed;

    Reviewing the detailed support of OTP billings submitted to Amtrak monthly by CSX;

    Comparing tolerances claimed by CSX with all available support documentation;

    Calculating over and/or under-billed amounts, as a result of any claim inaccuracies by
     CSX; and

    Communicating with host railroad groups for interpretation of agreement provisions.




                                            Page 8
                           CSX On-Time Performance Incentives
                                Final Report # 406-2005



                                          Exhibit B
Amtrak Management Interpretation of 12 Month Look-back




          July 5, 2000




          Mr. G. B . Mott
          AVP - Passenger Integration & NRPC Operations Officer
          CSX Transportation, Inc.
          500 Water Street. SC J-315
          Jacksonville, FL 32202

          Dear Mr. Mott:

          This is to follow up our discussion about the interpretation of the 12-month look
          back limit for on-time performance penalties. The language concerning the 12-
          month look back limit is in Appendix V , Section 0, which states:

          "D. Remittance of Performance Payments and Penalties.
          Performance payments will be paid to CSXT in accordance with section 5.2
          (Billing and Payment). Penalties may be deducted fnom the amounts otherwise
          payable to CSXT pursuant to this Agreement or paid separately to Amtrak;
          provided,,,however, that penalties shall only apply up to the amount of
          performati1:e payments eamed for all trains at all checkpoints in the preceding
          twelve-month period ."

          As you can see, the language limits penalties to "performance payments earned",
          not · performance payments earned less performance penalties paid".
          "Performance Payments" and "Performance Penalties" are two separate and
          distinct terms utilized throughout Appendix V, beginning in the first paragraph.
          On ly the performance incentives are utilized for the penalty limit because netting
          not only limits penalties in a given month but also limits future penalties even
          though performance payments were earned after the current month but before
          the future penalty. This is counterproductive to an effective incentive/penalty
          arrangement. If it were the intent of the parties to net payments and penalties,
          the language in Appendix V.D would have been stated that way.

          Sincerely,



          Gary A. Reinoehl
          Senior Director Contract Administration

          bcc:   Lee Bullock
                 Fred Ohly
                 Richard Simonen




                                              Page 9
                                CSX On-Time Performance Incentives
                                     Final Report # 406-2005



                                              APPENDIX
                                                NATIONAL RAILROAD PASSENG ER CO RPORATI ON
                                                        60 Massachusetts Avenue, NE. Washington. DC 20002
                                                                         tel (202) 906-3960, fax (202) 906-2850



Memo                                                                      """AMTRAK

                                                                  L             Ct/e. .. r2 __
    D."      March 26, 20 10                                     ~~. Boardman
      To     Tel Alves                                      Department    President and CEO
                                                               Subj~,     OIG Audit Report No. 406-2005
                                                                    cc    Eleanor Acheson
                                                                          William Crosbie
                                                                          DJ Stadtler
                                                                          Richard Phelps
                                                                          Jessica Scritchfield

 Mm • • ,   This is management's official response to the OIG Audit Repon No. 406-2005 On-Time
            Perfolluance Incentives.

            n,e Office ofInspector General (OIG) draft audit report dated March 19, 2010, regarding CSX
            on-time perfomrance incentive payments provides useful infonnation on which Amtrak
            management can take action to strengthen the review of host railroad billing practices. Since
            the OIG' s previous repol1 in August 2008, the company has made a munber of improvements.
            However, we recognize tlrat more needs to be done to fully ensure that Amtrak pays accurate
            and snpp0I1able incentive amOllllts when operating on host railroads.

            In response to the recommendatious in the draft repon, management will work with the OIG
            staff to fully llllderstand the methodology used to calculate overpayments nrade to CSX and
            conlllllllucations to date between OIG and CSX, and will then pursue, with the help of the Law
            Depanmem, any amounts management believes to have been ovelpaid dtu'ing the peri od from
            April 1993 through April 2004 that are recoverable tulder the law and witlun the tenus of the
            applicable operating agreements between Am trak and CSX. Management expects to be able to
            uutiate negotiations of ovelpayments with CSX after reviewulg and analyziIlg OIG's
            methodology and the records on which it based its findings.

            Amtrak management also agrees that a thorough review to verify on-time perfomrance
            incentives billed by host raihoads should be pelfonned prior to the approval and payment of
            invoices. Management will endeavor to adopt protocols and guidance cousistent with the
            August 2008 OIG repon , including the reconllnendations to (I) pelfonn real time thorough
            reviews plioI' to nraking payments. (2) develop fonnal Wlinen procedures for conducting the
            billing reviews, and (3) clearly defme responsibilities for conducting the reviews. Once
            nranagement decides how it will proceed in tillS regard, we will ilrfonn the OIG and provide an
            action plan detailing how and when tile changes will be implemented. We note, however, that
            nranagement has aheady taken some actions to implement tile 2008 reconllnendations including
            realigning the Host Railroad Group to tile Transponation Depamnent; continuing effons to
            implement simplified, autonrated "Delay Avoidance Incentives" with host raill'oads: and
            reinforcing the separation of duties between tile Host Raill'oad Group (contract negotiation) and
            Contract Administration (contract bill review, payment, and audit).




                                                    Page 10
                              CSX On-Time Performance Incentives
                                   Final Report # 406-2005


OIG Audit Repol1 #406-2005
March 26, 2010
Page 2


         Richard Phelps. Vice President - Transponation, will be responsible for making these changes.
         His staff will provide the OIG with a detailed action plan with milestone dates to implement the
         recommendations by May 1. 2010.




                                               Page 11
